<html>
<title> - THE RISE OF ISIL: IRAQ AND BEYOND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]










                   THE RISE OF ISIL: IRAQ AND BEYOND

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2014

                               __________

                           Serial No. 113-215

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                          U.S. GOVERNMENT PRINTING OFFICE 

88-730 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                                 
                                 










                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable James Jeffrey, Philip Solondz Distinguished 
  Visiting Fellow, The Washington Institute for Near East Policy 
  (former U.S. Ambassador to Iraq)...............................    10
General Jack Keane, USA, Retired, chairman of the board, 
  Institute for the Study of War.................................    18
Mr. Doug Bandow, senior fellow, Cato Institute...................    27
Mr. Michael Eisenstadt, senior fellow and director of the 
  Military and Security Studies Program, The Washington Institute 
  for Near East Policy...........................................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable James Jeffrey: Prepared statement..................    12
General Jack Keane, USA, Retired: Prepared statement.............    20
Mr. Doug Bandow: Prepared statement..............................    29
Mr. Michael Eisenstadt: Prepared statement.......................    38

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    62
Questions submitted for the record to General Jack Keane, USA, 
  Retired, by the Honorable Joseph P. Kennedy III, a 
  Representative in Congress from the Commonwealth of 
  Massachusetts..................................................    64

 
                   THE RISE OF ISIL: IRAQ AND BEYOND

                              ----------                              


                         TUESDAY, JULY 15, 2014

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

                                  and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules.
    The rise of ISIL and its rapid expansion across Syria and 
Iraq is a great threat to the security of the Middle East, even 
to the U.S. Just focusing on Iraq, it is not a pleasant 
picture. Iraq is one of the world's top oil exporters, to the 
tune of 2.7 million barrels a day. If ISIL continues to march 
across Iraq, we could see most of Iraq's exports dry up.
    The result would be a spike in oil prices. More countries 
would want to buy oil, then, from Iran, threatening our 
sanctions regime. The U.S. economy would also be affected and 
Americans could lose their jobs.
    As Iraqi Prime Minister Maliki looks to a supreme leader in 
Iran for help, Iranian influence in Iraq is growing day by day. 
This is disturbing. Also, to me, corruption seems to be a 
problem in the Maliki regime.
    Iranians are bringing in planeloads of weapons and even 
conducting air strikes. Increased Iranian involvement plays 
into the worst fears of Iraq's Sunni neighbors like Saudi 
Arabia. The fear is that the crisis could turn into a regional 
sectarian war. If this happens, the oil market could spike like 
never before. Plus, our ally, Israel, would be caught in the 
middle of a Middle East war.
    ISIL may be regionally focused for now, but it has said it 
has sights on the United States. Today ISIL controls more 
territory than core al-Qaeda did before 9/11. Planning attacks 
on the United States costs money, but ISIL has millions of 
dollars in the bank and seems to be getting more every day.
    An attack also takes fighters, and ISIL has thousands of 
highly trained fighters who are much more capable than those 
who were fighting in Iraq in 2007 and 2008. Some of these 
fighters have European passports. This means they can travel to 
the United States without a visa. Planning attacks takes 
willingness, and in July 2012 al-Baghdadi warned the U.S. 
leaders that ``The war with you has just begun.'' In January 
2014 he said again about the United States, ``Soon you will be 
in direct conflict, God permitting, against your will.''
    This didn't have to happen. The rise of ISIL was not a 
surprise. It was just ignored by many in the U.S. It seems to 
me the White House did not push Maliki hard enough to make the 
kind of reforms necessary to prevent the crisis in his own 
government or the army. Mosul fell in 3 hours because Maliki 
had spent the last 5 years purging the army of all of its 
effective commanders. And when the Iraqi army came into 
conflict with ISIL, many soldiers cut and ran, dropping U.S. 
equipment into the hands of ISIL. Isn't that lovely?
    So Maliki has continued to turn Iraq into his own personal 
fiefdom. Within hours of the withdrawal of U.S. forces in 
December 2011, Maliki sought the arrest of Vice President and a 
longtime Sunni rival and sentenced him to death in abstentia. 
Three years later, Maliki has not learned his lesson.
    Just last week he fired his Kurdish Foreign Minister, 
accused Kurdistan of harboring ISIL terrorists, even though it 
is the Kurds who have been the best fighters against ISIL. In 
fact, the last time I was in Iraq with other Members of 
Congress we asked Maliki some tough questions. And when we got 
through meeting with him, he ordered us out of his country. He 
evicted us, in other words.
    However, we did stick around and visited with the Kurds, 
who are very receptive to the United States and support the 
United States. The Kurds are tired of Maliki's bullying. The 
Kurds have been long-time friends of the U.S., and if they want 
independence my opinion is we should support that.
    The question is: What does the United States do with 
Maliki, his incompetence in the rise of ISIL? Like 2010, we are 
now at another crucial juncture. Maliki and his State of Law 
Coalition are in the process of trying to form a new 
government. He is trying to run for a third term. In my 
opinion, he needs to go. And like what we did in 2010, the U.S. 
must work with our friends and allies in the region to 
encourage new leadership.
    In the next week, hundreds of American military advisors 
currently in Iraq are expected to report their findings of Iraq 
military capability and the strength of ISIL. Congress should 
be able to see this finished assessment, and I hope my 
colleagues will join me in this request.
    The crisis in ISIL is not really a surprise, but now that 
it is a reality, what is the U.S. plan to address this 
aggression?
    I will now turn to my ranking member, Mr. Brad Sherman from 
California, for his 5-minute opening statement.
    Mr. Sherman. We have seen a Mr. Baghdadi with incredible 
ego declare himself caliph. We have seen attacks on Mosul, 
where the Iraqi army was so panicked they didn't even take the 
money out of the vaults for themselves, their government, or 
even burn it. We see battles in Tikrit now as that Iraqi army 
shows a little sign of strength.
    In Syria, we have the reasonable Sunni elements comprising 
by far the least powerful of the three elements fighting for 
that country, although I guess you could say that the IS, 
formerly ISIS or ISIL, is not fighting for the country of Syria 
but for a worldwide caliphate that just happens to include 
Syria.
    The Maliki and the politicians of Baghdad are less than 
inspiring, but they have just in the last 24 hours agreed on a 
Sunni to serve as speaker, who achieved that with Shi'ite and 
Kurdish support, meaning it is the first tripartisan decision 
or tri-ethnic/religious decision made in Baghdad in recent 
memory.
    The Iraqi goverment--military is not just incapable, but as 
The New York Times cited yesterday, it is so deeply 
infiltrated, either with Sunni extremists in some units or 
Shi'ite personnel backed by Iran in others, that to assign an 
American advisor is to put that American advisor at risk from 
the people they are supposedly advising.
    Iran, I think, continues to be the greatest threat to us in 
the Middle East. There is the economics of 2.7 million barrels 
a day of oil exported chiefly from the Shi'ite areas of 
southern Iraq. That is 7 percent of global exports, but well 
less than that in terms of total world production. And I don't 
think that that oil is likely to be disrupted, because I don't 
think that the new caliph, as he styles himself, is going to be 
able to get that far south.
    We are faced with a Middle East based on really three 
divisions. We have got the Sunni extremists, al-Qaeda and the 
Islamic State, with Hamas, aided to some degree by Qatar, which 
sometimes pretends to be our ally and friend. We have got a 
Shi'ite alliance headed by Iran, Assad, Hezbollah, and elements 
of the Iraqi Government. Perhaps you would classify Maliki as 
fitting into that group.
    And, finally, you have the moderate Shi'ites, including the 
weakest elements of Syria, that many on this committee thought 
we should have been supporting long ago. Now it is hard to find 
credible Sunni moderates to support in the region. Also, 
including in this group Saudi Araba, the Emirates, Jordan, 
perhaps Turkey, and the Kurdish non-sovereigns, non-state.
    The Sunni extremists pose the greatest threat of a moderate 
attack against the United States. They have been trying to in 
effect down one of our planes ever since 9/11. But it is the 
Shi'ite alliance headed by Iran that poses the threat of a 
great history-altering catastrophe.
    And so as we focus on Baghdad, we shouldn't just say, 
``Well, Maliki deserves our help because we were stupid enough 
to install him in that position,'' nor can we say, ``Well, 
Maliki would be behaving better if only the American President 
had a different personality.'' We must recognize that Maliki is 
part of an Iranian-led alliance, first and foremost, though 
perhaps the element in that alliance more subject to reason 
that the others.
    So I look forward to hearing from our witnesses about a 
Middle East that has become more complex every year I serve on 
this committee. And I yield back.
    Mr. Poe. I want to recognize the chairman of the 
Subcommittee on the Middle East and North Africa. I want you to 
know, first of all, that all of these people here today are 
here to wish you a happy birthday.
    Ms. Ros-Lehtinen. Thirty-nine and holding, Mr. Chairman. 
That is my story----
    Mr. Poe. So congratulations on your birthday.
    Ms. Ros-Lehtinen [continuing]. And I am sticking to it.
    Mr. Poe. And now you may give your opening statement.
    Ms. Ros-Lehtinen. Well, thank you so much, Judge Poe. I 
would like to recognize, first of all, the several Iraqi 
veterans that we have serving on our committee. We thank you 
for your service and for your efforts in fighting the 
extremists and terrorists in Iraq.
    The chaos that the Islamic State of Iraq and the Levant, 
ISIL, is creating in the region must concern us all. I would 
point out that though the administration seems to have been 
surprised by the resurgence of al-Qaeda in Iraq through ISIL, 
our two subcommittees have been following this issue closely 
for quite some time, and have been raising the warning flags 
that can no longer be ignored.
    So it isn't as if this was a new problem that came out of 
nowhere. In our hearing in November, we had Deputy Assistant 
Secretary for Iraq and Iran, Brett McGurk, testifying and he 
said that the Iraqis didn't even believe that they, in 
cooperation with the Sunni coalition groups, the Sons of Iraq, 
could fend off ISIL, and he said, ``They don't think they are 
going to win because the al-Qaeda groups have better weapons 
and better resources.''
    And we know what happened in Mosul and other cities in 
Iraq. And because they had nowhere else to run, many of the 
Sons of Iraq turned to join their foes and became members of 
ISIL. This Iraq crisis has been exacerbated by our failure to 
act early on in Syria, and also our inability to confront 
Iran's influence over Iraqi Prime Minister Maliki.
    Maliki's marginalization of Iraq's Sunni groups and other 
non-Shi'a Iraqis is a large reason why Iraq is seeing so much 
sectarian violence. And for the sake of Iraq and regional 
security, Maliki must either find a way to make the government 
more inclusive of all parties or he must step aside. Yet now 
the administration has said on numerous occasions that it is 
considering cooperation with Iran and Syria in Iraq to fight 
ISIL, the very same Iran that has been supporting Assad in 
Syria, fueling the conflict there, giving ISIL terrorists safe 
haven to spread their fight in Iraq.
    And this is the same Iran that is the world's foremost 
state sponsor of terrorism that actively, even while the 
administration negotiates on Iran's nuclear program, targets 
U.S. national security interests and those of our allies like 
the democratic Jewish state of Israel. Under no circumstances 
should the administration seek cooperation with Iran over Iraq 
or anywhere else. To do so would be folly, and it would be 
against everything that we in the United States stand for.
    The instability that ISIL has created threatens the entire 
region, but, more importantly, it is also a very real step, a 
real danger at the doorstep of our ally, the Kingdom of Jordan. 
Just 2 weeks ago, Congressman Ted Deutch and I went to Jordan 
to discuss ISIL, the Syrian conflict, other regional issues. 
And when speaking with the King of Jordan, he was unambiguous 
when he told us that ISIL poses a grave risk, not just because 
of the violence but because of the form of radical Islam that 
it is spreading.
    The administration must formalize a decisive policy that 
outlines our strategic goals and objectives that can help 
Jordan and other nations counter this militant Islamic threat. 
We need actions from this administration. We needed them months 
ago. ISIL is only getting more threatening and large while the 
administration is still pondering its policy.
    It has large financial assets that help keep it afloat, 
much of which is gained from seizing cash from banks and 
selling oil in the black market. And last week it claimed to 
have seized nuclear materials. These terrorists must be stopped 
or else we risk serious implications for our future security.
    Thank you, Mr. Chairman, for this hearing.
    Mr. Poe. I will now turn to the ranking member of the 
Subcommittee on the Middle East and North Africa, Mr. Ted 
Deutch from Florida, for his 5-minute opening statement.
    Mr. Deutch. I thank you, Mr. Chairman, and Mr. Ranking 
Member, and to my chairman, birthday greetings to you as well.
    When violence in Syria broke out nearly 3\1/2\ years ago, 
we were troubled by the reports of how rapidly extremist forces 
seemed to be taking hold. Groups like Jabhat al-Nusra and other 
loosely affiliated al-Qaeda groups employed grisly tactics and 
seemed bent on turning Syria into a terrorist safe haven. Fast 
forward, however, to this past February when al-Qaeda 
leadership disavowed a group that it deemed too extreme, the 
Islamic State of Iraq and Syria, now commonly known as ISIS or 
ISIL.
    ISIL, which formed out of al-Qaeda in Iraq, has recently 
renamed itself the Islamic State and has been expanding its 
stronghold in Syria before returning to Iraq. With the world 
still focused on the Syrian conflict, ISIS domination in Iraq 
may have seemed to come out of nowhere, but the political and 
security conditions on the ground in Iraq have been breeding an 
environment ripe for jihadist takeover.
    Since the last United States soldier left Iraq, the 
situation has been rapidly deteriorating. In February, the full 
Foreign Affairs Committee held a hearing on al-Qaeda in Iraq, 
where we assessed that violence this past year in Iraq had 
reached levels not seen since 2006. The Iraqi security forces, 
which the U.S. spent billions of dollars training and 
equipping, preferred to abandon their posts rather than fight a 
brutal militant group.
    Prime Minister Maliki's inability over 8 years to nurture 
an inclusive political system has marginalized Sunnis in 
Baghdad and tribal leaders throughout the country. Unlike in 
years past where Sunni tribal leaders united to help fight 
extremist threats, Maliki's attempts to consolidate power 
created space between his government and Sunni constituencies 
just wide enough for ISIL to fill. In fact, just days ago, The 
Washington Post ran a story entitled, ``In Baghdad Middle Class 
Sunnis Say They Prefer Militants to Maliki.''
    Who can play mediator with the Sunni leaders to convince 
that it is within their interest to disassociate from and 
disavow ISIL? Certainly, we are not going to fight for a Maliki 
government that refuses to engage in any political 
reconciliation.
    Conflict in the region has given way to a myriad of strange 
bedfellows. Let me be clear: We are not in partnership with 
Iran and Iraq. And as Mr. Eisenstadt has pointed out, continued 
suggestions to the contrary will only threaten U.S. interests. 
It is clear that the Iranians have an interest in saving 
Maliki, and they have a long history of training and arming 
Shi'ite militias.
    With many of the resources committed to keeping Assad 
afloat, and sustaining his violence front with Syria, how 
involved are the Iranians prepared to get? Will they shift 
Hezbollah fighters to Iraq or encourage their other terrorist 
beneficiaries to join the fight? And with ISIL's newly found 
financial independence, is there any foreign actor that can 
influence the organization?
    More powerfully, the question for the panel is: Can ISIL be 
stopped? Many are already talking as if a breakup states and 
rejittering of borders is inevitable. The most recent scenario 
emerging from many experts for Iraq appears to be some sort of 
loose confederation of Kurdistan, a Shi'ite area, and a Sunni 
area under a weak central government. What would that mean for 
the region? What effect would this have on U.S. interests?
    As Chairman Ros-Lehtinen pointed out, we were recently in 
Jordan where much attention has been focused on the ISIL 
threat. ``Is Jordan the next target?'' I ask our panel. Can 
Jordanian forces hold its border with Iraq? The United States 
and our reigonal partners have to do everything we can to 
support Jordan. The Kingdom has been a stable voice of 
moderation and has kept its borders open to those seeking 
refuge from the Syrian crisis, despite its already strained 
economy and resources.
    It remains to be seen how far ISIL's reach will extend, as 
it appears momentum has slowed the closer fighting gets to 
Baghdad, a Shi'ite stronghold. Shi'ite militias and the Iraqi 
army appear to be bent on preventing Baghdad from falling, 
though this does not preclude the possibility of a series of 
deadly attacks by ISIL as they attempt to weaken Baghdad.
    So far President Obama has responded to this very real 
threat by deploying Marines for Embassy security. With 1,700 
personnel still on the ground, the United States must remain 
extremely vigilant if the security situation around Baghdad 
deteriorates. There are fears that an attack or attempted 
attack on the Embassy or U.S. persons might drive the United 
States into the conflict.
    While we can continue to provide some support to various 
Iraqi elements in this fight, the United States should not 
inject itself into this sectarian war. We lost too many brave 
American soldiers to a misguided war in Iraq, and the American 
people deserve a thoughtful U.S. response with serious 
consideration of our national security interests, both at home 
and in the region.
    I remain deeply concerned that ISIL's pronouncement of a 
new caliphate could attract hundreds or thousands of new 
fighters coming to train with this group of terrorists. What 
happens when they return home to North Africa or Europe or 
elsewhere?
    I would like to thank our very distinguished panel for 
being here, and I look forward to the discussion.
    Mr. Poe. I thank the gentleman. Just so everyone knows, we 
are in the midst of votes. It is the hope of the Chair that we 
get through the opening statements and then we will have 
testimony. At 3 o'clock we will start testimony.
    The Chair recognizes the gentleman from Ohio, Mr. Chabot, 
for 1 minute.
    Mr. Chabot. Thank you, Mr. Chairman. I want to thank 
Chairman Ros-Lehtinen also for holding this hearing, along with 
yourself. The Islamic State of Iraq and the Levant has become 
one of the greatest threats to the Middle Eastern region.
    As ISIL continues to gain control over more territory 
throughout Syria and Iraq, U.S. strategic interests will 
inevitably be at even greater risk. There are reports that ISIL 
now maintains training camps in Iraq and Syria. And although 
they may not yet have the capability to carry out operations 
here in the United States, that may change as the group 
continues to recruit Western passport holders with the intent 
of returning them back to their home countries, including the 
United States, to commit acts of terrorism.
    The U.S. lost thousands of American lives and spent well 
over $1 trillion in Iraq. It is extremely disheartening to see 
a hard-won victory quickly slipping away for short-term 
political gain, rather than strengthening U.S. long-term 
strategic interests.
    I want to thank you again for calling this hearing, and I 
yield back.
    Mr. Poe. The gentleman yields back his time. The Chair 
recognizes the gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. First, let us just 
establish that this is not about freedom and democracy, and it 
never was. It was always about control and manipulation. And 
what we have going on in Iraq is really not isolated to Iraq; 
it is the entire region.
    And this dates back to, you know, who the rightful 
successor to the Prophet Muhammad is. When you look at, you 
know, an extreme group, the Islamic State of Iraq and Syria, 
and the leader of that group, Abu Bakr al-Baghdadi, you know, 
he takes his name from the historic successor to the Prophet 
Muhammad as viewed by Sunnis. And, you know, Nouri al-Maliki, 
as a Shi'a, failed to recognize and embrace the Sunni, you 
know, community, to be part of that society. So, obviously, 
they have risen up in opposition to this.
    So unless and until there is a recognition of pluralism, of 
minority rights, not only in Iraq and Syria, but throughout the 
Middle East, you will never have peace there. So I look forward 
to the testimony by our expert witnesses, and I yield back.
    Mr. Poe. Thank the gentleman for his comments. The Chair 
recognizes the gentleman from Illinois, Mr. Kinzinger, for 1 
minute.
    Mr. Kinzinger. Thank you, Mr. Chairman. And to the great 
panel, thank you all for being here. It is good to have you.
    As a veteran of Iraq, and somebody that was there during 
the surge, it is extremely disheartening for me to see this 
absolutely predictable scenario unfolding in front of our eyes. 
It is sad, and it is, frankly, the worst-case scenario. So we 
talk about, do we need to preserve the Iraqi standard, or do we 
let this fight out until there is a political solution in Iraq?
    Let me just say that what is happening right now is the 
worst-case scenario. So any option we have--and I have 
advocated for pushing ISIS back both in Iraq and in Syria with 
air strikes--is a better option than what we are seeing unfold 
before us.
    We are going to hear a lot, I am sure--hear from both 
Members of Congress and maybe some panelists about the idea of 
war fatigue. And while it is very real and very understandable, 
I would just like to remind everybody that thankfully President 
Truman, at the end of World War II, didn't come back and say, 
``We are fatigued of war,'' and bring all the troops home from 
Europe, or we would see a Soviet Union twice the size as today.
    And with that, Mr. Chairman, I yield back.
    Mr. Poe. I thank the gentleman. The Chair recognizes the 
gentleman from Rhode Island, Mr. Cicilline, for 1 minute.
    Mr. Cicilline. Thank you, Chairman, and thank you to the 
ranking members for holding this important joint hearing today 
on this very critical issue.
    The threat that ISIL poses to our national stability is of 
paramount concern to the United States and our allies, and 
addressing that threat and working toward a political solution 
to the instability in Iraq must remain a top priority of U.S. 
foreign policy. And as we continue to monitor ISIL's insurgency 
and expansion in Iraq and Syria, we must remain aware of the 
destabilizing effects of the so-called Islamic State on the 
entire region, as my colleague from New York just mentioned.
    We have to be determined to better understand the violence 
that currently permeates the Middle East and how the United 
States can predict, identify, and prevent insurgency and 
terrorism, and ultimately support peaceful democracy in the 
region. We must make sure that going forward we promote 
stability and unity in the region.
    I look forward to hearing these very distinguished 
witnesses today, and thank you for being here, and I yield 
back.
    Mr. Poe. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Perry, for 1 minute.
    Mr. Perry. Thank you, Mr. Chairman. I want to begin by 
saying that I reject categorically the comments from my 
colleague, Mr. Higgins. With that, the crisis created by the 
Islamic State or ISIS or ISIL, or whatever it is called, 
continues unabated in Iraq, is now on the precipice of full-
blown civil war.
    As U.S. forces withdrew in 2011, however, President Obama's 
administration failed to negotiate an agreement with Iraq that 
would have allowed a limited U.S. presence to help the Iraqis 
keep al-Qaeda and its affiliates from filling the power vacuum 
created by withdrawal. Instead, America quickly abandoned Iraq, 
and in the process allowed ISIS to hold transnational territory 
from which it has launched terrorist operations.
    Both Congress and the Pentagon warned the White House about 
the worsening situation in Iraq, to no avail. In January, 
President Obama referred to ISIS as the ``JV team.'' I do 
wonder if he would like to play the JV team.
    This type of what seems to be willful misinformed 
assessment of our enemy is just another instance of the 
administration's out-of-touch Iraq, Russia, Iran, Syria, you-
name-it policy.
    With that, I yield back.
    Mr. Poe. The gentleman yields back. The Chair recognizes 
the gentleman from Illinois, Mr. Schneider, for 1 minute.
    Mr. Schneider. Thank you, Mr. Chairman. It is clear that we 
are living through an inflection point in history. In 
particular, the current situation in Iraq lies at the 
confluence of four seams of conflict. The first two sources of 
conflict date back more than a millennium, and they reflect the 
divide between Sunnis and Shi'a on the one hand and between 
Persians and Arabs on the other.
    The third source of conflict arises from the collapse of 
the artificial nation states created a century ago by the 
Sykes-Picot agreement, in particular now in Syria and Iraq 
where we see them declining. Finally, in recent decades, we 
have seen the emergence of radical Islam merge with the threat 
of global jihad and international terrorism.
    In the chaos of Syria and Iraq, forces of global jihad and 
international terrorism such as al-Qaeda, al-Nusra, and now 
ISIS, have found fertile breeding ground for the culture of 
death and destruction. It is clear, whether we like it or not, 
that the United States must remain engaged in the region to 
deny radical Islamic militants a training ground to target our 
allies in the region and the U.S. homeland.
    I look forward to hearing from our witnesses on how we can 
achieve our national security goals in Iraq while working to 
address the long-term root causes of unrest in the region.
    And with that, I yield back.
    Mr. Poe. The gentleman yields back. The Chair recognizes 
the gentleman from Virginia, Mr. Connolly, for 1 minute.
    Mr. Connolly. I thank the chair. And I wish Mr. Perry was 
still here, because I disagree with him. You know, we have the 
distingushed General Jack Keane as one of our witnesses today, 
and he wrote an op-ed in which he uses the phrase ``setting 
aside for the moment the question of whether the administration 
has the will to intervene again in Iraq.''
    With all due respect, I don't think that is the question at 
all, nor is it one to be set-aside. The American people do not 
want this intervention. You know, 63 percent to 29 percent 
oppose sending U.S. ground troops back into Iraq. When asked 
about air strikes, a plurality of 39 percent would prefer the 
U.S. not conduct air stikes.
    This is the second-longest war in our history, and it does 
limit our options. And I might add, no matter what some of my 
friends on the other side of the aisle want to say, ISIS is not 
the creation of this administration, nor is the unsettlement in 
Iraq the responsibility of this administration. To say 
otherwise is to ignore history.
    Thank you, Mr. Chairman.
    Mr. Poe. The gentleman yields back.
    The subcommittee will be in recess until 3 o'clock. We will 
reconvene at that time, 3 o'clock.
    [Recess.]
    Mr. Poe. This subcommittees will come to order.
    Without objection, all of the witnesses' prepared 
statements will be made part of the record. I ask that each 
witness please keep your presentation to no more than 5 
minutes. I will introduce the witnesses and then give time for 
opening statements.
    The Honorable James Jeffrey is the Philip Solondz 
Distiniguished Visiting Fellow at The Washington Institute for 
Near East Policy. Ambassador Jeffrey previously served in the 
United States Army and was Ambassador to Iraq from 2010 to 
2012.
    General Jack Keane is the chairman of the board at the 
Institute for the Study of War. General Keane is a retired 
four-star General and the former Vice Chief of Staff for the 
United States Army.
    Mr. Doug Bandow is a senior fellow at the Cato Institute 
where he specializes in foreign policy and civil liberties. 
Previously, Mr. Bandow was a visiting fellow at the Heritage 
Foundation and served as Special Assistant to President Ronald 
Reagan.
    And Mr. Michael Eisenstadt is a senior fellow and the 
director of the Military and Security Studies Program at The 
Washington Institute for Near East Policy. Mr. Eisenstadt has 
been on active duty in Iraq twice as part of his service in the 
United States Army Reserve, once in 2008 and then again in 
2010.
    First of all, thank you, gentlemen, for your service. And, 
Ambassador Jeffrey, we will start with you. And you have 5 
minutes.

   STATEMENT OF THE HONORABLE JAMES JEFFREY, PHILIP SOLONDZ 
  DISTINGUISHED VISITING FELLOW, THE WASHINGTON INSTITUTE FOR 
       NEAR EAST POLICY (FORMER U.S. AMBASSADOR TO IRAQ)

    Ambassador Jeffrey. Thank you very much. Chairman Poe, 
Ranking Member Sherman, Chairman Ros-Lehtinen, it is an honor 
to be here today on such an important issue.
    As we heard from the statements from members of the two 
subcommittees, the turn of events in Iraq over the last month 
leading to the establishment of the so-called Islamic State is 
a stunning blow to U.S. policy and goals in the Middle East. 
The creation of an extremist quasi-state analogous to 
Afghanistan under the Taliban exposes many of our key interests 
globally as well as in the region. Simultaneously, we are 
facing a militant Iran on the march, allied with Syria's Assad, 
Hezbollah, and some in Iraq.
    This is an emergency, not an everyday crisis. At this 
point--and this has already been suggested--the cost of doing 
nothing significant now is greater than the risks of most 
actions short of actually committing ground troops.
    The question was asked a bit earlier, can ISIS be stopped? 
I think it can. The policy laid down by President Obama on June 
19, which is focused on mobilizing intelligence, military 
resources, while trying to get an inclusive government based on 
the idea that we need an inclusive government for any retaking 
of these areas that ISIS has seized, primarily in the Sunni 
Arab areas of Iraq, in principle is a good way forward.
    The problem is, this policy was announced almost a month 
ago. We have seen almost nothing happen on the ground since 
then, other than some of the assets have been moved forward and 
an assessment has been done. The only good piece of news that 
has come out of this so far is just today that the Iraqi 
Parliament has elected, by a significant majority, a speaker, 
Salim al-Jabari. I know him. He is a good choice. He is from 
the Sunni Arab population. But the Parliament then fell into 
rangling over which Shi'a deputy would be selected, suggesting 
that the whole issue of Mr. Maliki has not been decided yet.
    To achieve our goals, to carry out the policy that the 
President laid out, several things must happen very quickly. 
First of all, we do need a new government, and this government 
cannot include Prime Minister Maliki at the helm. He has lost 
all credibility with the Kurds and with the Sunni Arab 
population, and his own performance as Commander-in-Chief is 
one of the reasons why the military did so badly.
    For many reasons, Iraq needs a new Prime Minister. That is 
the most important thing for turning this situation around, but 
it has to be done quickly. The Kurds must be brought back into 
the Iraqi camp. They are toying with the idea of independence 
right now. There are offerings that can be made to them, 
particularly in the banking and oil areas, that would entice 
back I think, assuming Maliki goes, but that has to be done 
quickly.
    The Sunni Arab regions and the specific provinces have to 
be offered the kind of deal that some of the oil provinces--I 
am thinking of Basra, Kirkuk, the Kurdish region, and Najaf, 
which receives a lot of tourists--have gotten from the central 
government. Thye have been able to share in the central 
government's oil wells, and they have been able to develop 
their own economies and have some control over local 
governance. This is a good model that could be applied very 
quickly.
    Finally, we need a Commander-in-Chief of the Iraqi forces 
that is not the Prime Minister. That position has to be split. 
With those three concrete actions, we could bring back most of 
the people, most of the political forces, behind a new 
government and a new Prime Minister and a new President very 
quickly.
    At the same time, the U.S. should begin conducting limited 
strikes as this process goes on to deter ISIS from pushing 
forward and providing support not just for the Iraqi army and 
Maliki's forces but for Sunni tribes and others who are 
fighting on the Euphrates Valley and to the Kurds as well. We 
do need to limit these strikes until such time as we can get an 
inclusive government, because the retaking of these Sunni areas 
will be a very long-term operation.
    Finally, we need to provide support to the Syrian rebels, a 
$500,000 program that the President has proposed. Failing this, 
we will very quickly, as also was mentioned earlier, be facing 
three separate states all posing problems to us--the Iraqi, the 
Islamic State, a threat to the entire world including the 
homeland; a rump Shi'a state in the south controlling Iraq's 
oil wealth and dominated by Iran; and a Kurdistan, whose role 
in the region will be very, very complicated. We need to avoid 
this if at all possible. We should move forward.
    Finally, we should not be coordinating beyond the bare 
minimum with Iran. They may share some goals with us, but they 
do not share our interests.
    Thank you very much.
    [The prepared statement of Ambassador Jeffrey follows:]
        
   
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Ambassador.
    General Keane, you have 5 minutes.

STATEMENT OF GENERAL JACK KEANE, USA, RETIRED, CHAIRMAN OF THE 
             BOARD, INSTITUTE FOR THE STUDY OF WAR

    General Keane. Chairman, Ranking Members, and members of 
the committee, thank you for inviting me. You know, ISIL is the 
new face of the al-Qaeda and the much larger radical Islamic 
movement. ISIL has accomplished what the 9/11 al-Qaeda only 
dreamt about but truly forfeited when they overreached and 
attacked the American people.
    As we know, ISIL in 3 years has managed to take control of 
a vast swath of territory in Syria and Iraq. They declared an 
Islamist State, they have got somebody in charge of it--al-
Baghdadi--designated him as a caliph. How did all of this 
happen? And was it a surprise? Absolutely not.
    The United States Intelligence Agency had been quite aware 
of this threat for a time and have been reporting it. This is a 
failure of policymakers who essentially ignored it. ISIL 
systematically took control of territory in Syria, preferring 
this territorial control and imposing its own harsh form of 
governance to actually fighting the Assad regime.
    Two years ago ISIL began a concentrated terrorist campaign 
in Mosul, Anbar province, and Baghdad. These terrorist 
activities were a prelude to the army-like conventional attack 
that ISIL made to seize Fallujah, eventually Mosul, and much of 
northern Iraq.
    ISIL represents the most menacing threat to the Middle East 
stability that I have observed, with stated objectives to 
expand to Jordan and beyond. Obviously, ISIL is a threat to 
U.S. national security objectives in the Middle East, and 
eventually a threat to the American people as it becomes a vast 
breeding ground for foreign fighters, to include Americans, 
some of which has already occurred as reported by Mr. Clapper, 
the Director of National Intelligence. In my view, this will 
only get worse.
    ISIL must be stopped. It should be our top priority. And it 
only will be accomplished with the United States in the lead, 
with cooperation with our allies in the region. This is not an 
impenetrable force. It is relatively small, under 10,000, and 
because of their harsh rule they are very unpopular. ISIL's 
rapid success is due to its army-like conventional tactics, 
which is also its major vulnerability.
    ISIL can be effectively attacked in Syria and Iraq using 
airpower to destroy known sanctuary staging bases, lines of 
communication, and command and control facilities. Special 
operation forces should be clandestinely employed to attack 
high value targets, particularly in Iraq but eventually 
expanded into Syria.
    The President's decision to assist the Free Syrian Army is 
a step in the right direction. Before the recent Iraq invasion, 
the Free Syrian Army was the only force in Syria that fought 
ISIL. Iraq needs our help, certainly. There is much we can do 
to assist Iraq diplomatically, politically, and militarily.
    I associate myself with Ambassador Jeffrey's comments. And 
I would just add that I also think diplomatically Secretary 
Kerry should lead an effort to work with Sunni leaders in the 
region--Saudi Arabia, Jordan, Qatar--who have relationships 
with Iraq Sunni politicians and Sunni tribal leaders, to move 
them away from ISIL
    Politically, disptach to Iraq, a team led by Ambassador 
Crocker and General David Petraeus, to work with the Iraq 
political and military leadership to move them toward a unity 
government who reconciles with the Sunni tribes and brings back 
the Kurds.
    On the military side, the rapid collapse of the Iraq army 
was a major surprise. Maliki systematically purged military 
leaders, many who distinguished themselves during the surge in 
2007. He replaced them with cronies and hacks who, over time, 
drove down the morale of the units, and some of those units 
that fled in the face of the ISIL advance were only at 50 
percent strength.
    U.S. advisors can assist with the reconstruction of Iraqi 
army units that disintegrated along with establishing and 
overseeing a necessary training program. Advisors can also help 
with the defense of Baghdad, planning it, and also executing 
it, and also with the planning and execution of a counter-
offensive to retake lost territory.
    Special forces, air-ground controllers, and airpower can 
certainly assist in doing all of that. To do nothing more, 
diplomatically, politically, and militarily, however, almost 
guarantees with certainty that Iraq, as the world knew it, it 
will be gone--some believe it is already--with the prospect of 
ISIL dominating most of the country.
    The fact of the matter is that Iran and Russia see this 
upheaval as an opportunity to advance their national interest 
in the region, and they are all in. Let me conclude by simply 
saying that this is a time for less hand wringing and about 
what--or less hand wringing about how we got here and who is at 
fault, although I am prepared to talk about it, and more focus 
on U.S. resolve to lead a determined effort to push back and 
eventually defeat ISIL, which should be a part of a larger 
comprehensive strategy to assist our partners in the region to 
stop the rise of radical Islam.
    Iraq needs capable, sophisticated U.S. assistance to 
reconcile its damaging political differences by moving toward a 
unity government.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, General.
    Mr. Bandow, you have 5 minutes.

  STATEMENT OF MR. DOUG BANDOW, SENIOR FELLOW, CATO INSTITUTE

    Mr. Bandow. Well, thank you, Chairman Poe, Ranking Member 
Sherman, Chairman Ros-Lehtinen, and Ranking Member Deutch, and 
other members. I appreciate the opportunity to partipcate in 
this hearing.
    Without doubt, the rise of the Islamic State of Iraq and 
Levant represents a significant failure for U.S. policy. 
Although a matter of great concern and quite serious, it does 
not pose the sort of threat that requires immediate military 
action, however. The Sunni group ISIL appears to lack the 
strength necessary to capture Baghdad or take control of the 
majority Shi'a state, and Syria's ISIL faces multiple political 
and military challenges as well. It is one thing to declare a 
caliphate; it is quite another to actually rule.
    I think there are a number of lessons to bear in mind as we 
think about the future. One is that intervention brings 
unintended consequences, which often are unpredictable and 
uncontrollable. We certainly found that our policy toward Iraq 
has always been challenged by the unexpected. That has not 
changed. Even had a new government in Baghdad been amenable to 
a continued U.S. military presence, I doubt that would have 
offered a remedy to the sectarian hostilities that have 
exploded full force today. We have to bear those kinds of 
unintended consequences in mind.
    America's interest varies depending upon the character of 
the groups that we are dealing with. In general, a restrained 
U.S. response emphasizing retaliation with allies taking 
principal, direct responsiblility is the best approach, I 
believe.
    The question in this case is: What is ISIL? Very different 
from a guerrilla operation or a militia in a civil war, 
obviously, or transnational groups such as al-Qaeda, but ISIL's 
character so far, while not immutable, appears to be more like 
a party in a traditional civil war, and to the extent that it 
succeeds in creating a geographic territory, opens itself up to 
retaliation, and, therefore, has a different incentive 
structure in terms of how it approaches the United States. 
That, I would argue, gives the United States an opportunity for 
a thoughtful and measured response as opposed to a precipitous 
response.
    Indeed, the organization's success so far has depended much 
on Ba'athist loyalists and tribal leaders more interested in 
winning regional autonomy or a fair distribution of national 
spoils than returning to the 7th century. I think that division 
is one that needs to be exploited, particularly in Baghdad, and 
that is a particular problem that we have with the current 
government.
    I believe that another lesson we should bear in mind is 
that U.S. military action almost certainly would result in 
costs as well as benefits. We have learned so far the limits of 
American power, especially when imposed from afar with little 
public support in America for long-term involvement that 
potentially looks like social engineering.
    I believe that airpower, while helpful, is not going to 
liberate captured cities or turn territory back over to the 
Sunni--the Shi'a government. And the danger of targeting Sunni 
areas is killing those who, in fact, worked with the United 
States back during the surge in opposing al-Qaeda.
    The U.S. I believe loses by giving a blank check to 
Baghdad. The Maliki government is perhaps the primary 
instrument responsible for the current disaster with the Prime 
Minister misgoverning, exacerbating sectarian tensions and 
weakening his own government's governing institutions, 
particularly the military.
    To support that government rewards his strategy. A new 
government would be best. It is not clear, however, if it is in 
our power to impose it. He must understand, however, that the 
reason his country faces crisis is the way that he has 
governed. But there is a danger for the United States tying 
itself to his government, particularly if military action is 
involved, because if we get involved in what is effectively a 
sectarian war, taking sides there, we may make more enemies 
than friends.
    Moreover, back in Baghdad, we must be careful not to 
foreclose potential solutions, including some form of 
federalism or even partition. The Kurds clearly are moving 
toward a vote toward independence. They are interested in that 
option. They long have been. The willingness of mainstream 
Sunnis to back ISIL demonstrates the depth of their alienation 
there.
    It would certainly be best, I believe, to keep Iraq 
together, but that's not clearly the only option. The U.S. 
should be discussing with other parties in the region, 
countries like Jordan, which clearly face serious threats here, 
and Turkey and others, of how to diffuse the potential 
sectarian explosion.
    I realize the support for the Syrian opposition. However, I 
fear that backing the Syrian resistance further undermines 
ultimately the Iraqi Government. And that while the Damascus 
Government is odious, it is not as obviously inimical to 
American interests as an ISIL caliphate stretching across the 
region. To some degree, I believe we have to set priorities 
here, and I fear that backing the opposition is likely to lead 
to worse results in terms of ISIL.
    Finally, it is critical to involve America's friends and 
allies. Countries like Turkey, Jordan, Lebanon, and others have 
an extraordinary amount at stake. The question, then, is how we 
can involve their potential and their abilities. They vary 
dramatically, obviously. Nevertheless, they have the most at 
stake. They are closest to the region. And to the extent they 
are Muslim nations, they are better positioned than the United 
States for involvement in what risks being a sectarian 
conflict.
    [The prepared statement of Mr. Bandow follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you.
    Mr. Eisenstadt, 5 minutes, please, sir.

STATEMENT OF MR. MICHAEL EISENSTADT, SENIOR FELLOW AND DIRECTOR 
 OF THE MILITARY AND SECURITY STUDIES PROGRAM, THE WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Eisenstadt. Chairman Poe, Ranking Member Sherman, 
Chairman Ros-Lehtinen, and Ranking Member Deutch, and other 
members, thank you for giving me the opportunity to testify 
before your committee about this pressing issue.
    The rapid capture of large swaths of northern Iraq last 
month by ISIL has altered the strategic landscape of the Middle 
East. Given the amounts of blood and treasury the United States 
has already invested in Iraq, why should Americans care? Simply 
because the United States still has vital security interests 
that are affected greatly by developments in Iraq and the 
region. And these interests are: One, combating terrorism and 
the potential threat this poses to the American homeland; two, 
oil; three, nonproliferation; and, four, continuous Iranian 
influence.
    Iraq is where nearly all of these issues converge. Iraq is 
now a potential springboard for ISIL subversion directed 
against Jordan and Saudi Arabia, and for ISIL terrorist attacks 
outside the region. It is an oil producer that was, at least 
until recently, expected to account for 45 percent of all 
future growth in world oil supplies in the coming years. And 
Iraq is the land bridge that enables Iran to more easily 
project influence in the Levant.
    First, developments in Iraq have the potential to shape 
vital U.S. security interests in the Middle East and perhaps 
even the security of the homeland in the coming years. And the 
experience of the past decade teaches us that for this reason 
it is vitally important for the U.S. to try to influence the 
course and outcome of developments in that still-important 
region. Experience shows that if you don't visit the Middle 
East, the Middle East will visit you.
    So what is next? ISIL is not likely to replicate its 
spectacular military achievements in the Baghdad area, yet the 
Iraqi security forces were seen by many locals in northern Iraq 
as an army of occupation. In Baghdad, they are defending home 
turf and can rely on the support of thousands of shared 
militiamen mobilized to fight ISIL. Indeed, the latter's 
efforts to move on Baghdad, at least for now, have stalled.
    The conflict has effectively settled into what is likely to 
be a prolonged and bloody war of attrition. There will be no 
more easy victories for ISIL, though its ability to wreak havoc 
in the capital and elsewhere, through suicide bombings and 
sectarian killings, remains undiminished. That said, we must 
not be complacent because it appears that the momentum of the 
ISIL advance has been broken. That could change very quickly.
    Neither will it be easy for the Iraqi security forces to 
reclaim many of the areas that were lost to ISIL. The ISF has 
been trying to do so in Fallujah for months now without 
success, even though that city is a mere 25 or so miles west of 
Baghdad. For the ISF to succeed, it will need to find allies 
among the Sunnis in order to reprise the tribal uprising that 
helped defeat al-Qaeda in Iraq in 2006 and 2007.
    But having been used and abandoned once before, and 
targeted by both government forces and al-Qaeda since, the 
Sunni tribes won't come around so easily this time. ISIL also 
faces challenges. It is spread thin throughout northern Iraq. 
If it is to hang on to its territorial gains, it will have to 
hold together the loose military coalition that it leads, which 
includes Ba'athist insurgent groups and tribal militias whose 
interests diverge from those of ISIL.
    It will have to avoid the tendency to alienate the very 
Sunni constituency it claims to represent by its harsh 
application of Islamic law. And it will face the challenge of 
having been transformed virtually overnight from perhaps the 
world's wealthiest terrorist group to one of the world's 
poorest de facto states. These dynamics will create 
opportunities for the al-Maliki government, or its successor, 
if it is wise enough to seize upon them.
    So what should the U.S. do? First, don't intervene directly 
in Iraq civil war, at least not yet. Instead, the U.S. should 
continue quietly providing intelligence, advice, and munitions 
to the Iraqi security forces, but it should slow roll the 
delivery of large advanced systems such as Apache helicopters 
and F-16 fighters, which Iraq currently lacks the pilots to fly 
anyhow.
    Just thinking about more significant support, to include 
U.S. joining air strikes, will come only if the Prime Minister 
takes a different politic tack toward the country's Sunni Arabs 
and Kurds. This will maximize U.S. leverage at this crucial 
time in the government formation process, in order to achieve a 
political outcome that could pave the way for a truly effective 
military campaign against ISIL, one that reprises the Sunni 
Arab tribal uprisings of 2006 and 2007.
    Right now, politics in Baghdad do not permit such campaign. 
Except to defend Baghdad, the U.S. should, therefore, issue 
kinetic action until the Iraqis get the politics piece right.
    Two, we should start to talk about working with Iran 
against ISIL. The enemy of our enemy is not necessarily our 
friend. The U.S. and Iran have a common enemy in ISIL, but the 
interests of the two are not aligned, whether regarding U.S. 
influence in Iraq, the nature of Iraqi politics, on the issue 
of Prime Minister Maliki, and the role of sectarian militias in 
combating ISIL. And such talk only feeds speculation that 
Washington and Tehran are conspiring at the expense of the 
Sunnis, and that the United States believes that the way to 
fight Sunni jihadists is by allying with Shi'ite jihadists.
    Finally, train and equip the moderate Syrian opposition to 
pressure ISIL and Iraq. ISIL has a major presence in eastern 
Syria, and it is important to put pressure on it there, 
especially in light of its recent gains in Iraq. Revitalizing 
the moderate opposition will constitute a challenge to ISIL, 
but it could force the latter to redeploy at least some of its 
forces from Iraq to secure its Syrian sanctuary, thereby 
relieving some of the pressure on the Maliki government and 
perhaps loosening its hold on the newly taken ground in Iraq. 
This will take time, however, and the hour is late. We must 
move quickly.
    Thank you.
    [The prepared statement of Mr. Eisenstadt follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, gentlemen, and thank you all once again 
for your service, especially your military service.
    I agree with you, General Keane, that it is futile to try 
to blame someone or someones for the situation that we find 
ourselves in today. That is not the issue. We are in a 
situation. Now, what does the United States do, if anything?
    I agree with my friend from New York that this is a bigger 
event than a small civil war. It has been waged for centuries 
between Sunnis and Shi'as, and I see this as just more of the 
same that historically has had conflict in the region.
    Assuming the United States backs off and watches what takes 
place, how is it going to play out? General, what do you think 
would play out? We just back off and we watch.
    General Keane. Yes. Well, first of all, you have to--it is 
convenient to characterize this as sectarian conflict a civil 
war. Shi'a and Sunni have been fighting each other for hundreds 
of years, and ISIL would love you to do that.
    The fact of the matter is, the radical Islamist, the al-
Qaeda movement, and now the ISIL movement, clearly wants to 
dominate all Arab lands--most of those are run by Sunnis--even 
though they are a Sunni-based terrorist organization.
    So the fact is, if we sit back and do nothing, ISIL will 
continue to pursue its goals. I would agree about Iraq itself 
and Baghdad, it is likely they cannot succeed there, but it is 
not certain. They are skilled and crafty at what they do. They 
wouldn't launch an all-out attack on Baghdad. They go into 
Sunni neighborhoods, do what they did in 2006, conduct 
terrorist activities, and from there, own those neighborhoods 
and begin to mortar and rocket the Green Zone, et cetera, 
breaking will, suicide bombs going off, et cetera, making a run 
at the Green Zone as a limited attack to break will.
    So ISIL, I don't think, is giving up. They are working 
around the periphery of Baghdad right now. We have been 
tracking it every single day. There are multiple attacks north, 
west, and south. So, clearly, they have a mind to go into 
Baghdad and be successful. I don't think they can be, but 
certainly I am telling you that is their objective.
    The fact of the matter is, ISIL sitting there is very 
exposed to us. And if we accept the fact that they are a threat 
to the Middle East stability--and that seems blatantly obvious 
right now--and we have a 350 kilometer border with Syria that 
ISIL now owns, and there is a 175 kilometer border with Iraq 
that ISIL now owns, clearly, Jordan is next. They have stated 
it; it is next.
    They are not going to go down the road to Jordan, like they 
did to Mosul. The Jordanian Air Force will blow them right off 
the road. But they will unite with the Salafists, bring foreign 
fighters in there, begin a major terrorist movement, use both 
borders with Jordan, that they own, and begin major 
infiltration. That is next. That is what is in front of us if 
we do nothing.
    We have known sanctuary station bases, command and control 
facilities that are available to us to strike now. This is not 
about Sunni tribes. Sunni tribes are not in Syria. Sunni tribes 
are not up north where they are facilitating these operations 
from. They only are--they began to pick them up when they got 
into Mosul. There are plenty of targets that we have that we 
can start to do some damage to them.
    Mr. Poe. So you recommend air strikes?
    General Keane. Oh, yes. Sure. Absolutely.
    Mr. Poe. And what else?
    General Keane. Well, I would bring in our clandestine 
Special Operations Forces, let them pick the place they need to 
conduct operations, and start taking down ISIL leaders, high 
value targets, critical nodes that they can do. Those targets, 
believe me, after we have been applying all of our intelligence 
resources, just on what is going on in Mosul alone, are 
available to us now.
    Mr. Poe. All right. Thank you.
    Just a couple more questions. Mr. Bandow, let me ask you 
two questions. What if it plays out to a three-state solution? 
As the Ambassador talked about earlier, the Kurds in the north 
and the two other provinces in the south, three states, is that 
such a bad idea?
    Mr. Bandow. A lot depends on specifically how it plays out. 
I don't think an independent Kurdistan is a bad idea. I think 
Turkey has come around with a willingness to deal, and I think 
that is very important. Until recently, that would have been 
quite problematic with Turkey.
    The issue for the Sunni areas, of course, is oil and access 
to resources. Concern about Shi'a would be a Shi'a-dominated 
republic, would be under greater domination presumably of Iran. 
I think we are facing a situation of, compared to what? Can you 
hold the place together? Can you get a division that works out 
where you have some overall national government that is quite 
limited, and you have people at least willing, by separation, 
to live in peace.
    I think nothing is going to come out of this easy, and 
nothing is going to come out of it without bloodshed. The 
question is, does a separation process like that give us a 
better chance to have a long-term peaceful solution as opposed 
to trying to hold it together. And my fear is we may have 
passed the point. Given the alienation of the Sunnis, can we 
hold it together at this point?
    Mr. Poe. All right. Thank you.
    I will yield 5 minutes to the ranking member, Mr. Sherman 
from California.
    Mr. Sherman. Thank you. At some point there will be peace. 
When that peace arrives, we may see an Iraq, Syria, and Lebanon 
that looks like Lebanon. That is to say, in Lebanon, you look 
at it on the map, it looks like one country. You go there and 
you have militias from the Druze, the Shi'ites, the Sunnis, and 
the Christians. We may go Syria and Iraq and see different 
areas controlled by the Alawites, Kurds, Sunnis, and Shi'ites.
    One rhetorical question is: What if somebody in the Middle 
East threw a war and invited us and we didn't come? It wouldn't 
be necessarily the worst thing. I join with the chairman in 
thinking we need to look at our future policies rather than 
evaluate the past. I fear that--and I want to correct the 
record on this--that some of the opening statements seemed to 
be blinded by invective for the President that if we go down 
that road we are not going to reach good policy for the future.
    And I think the gentleman from Arkansas, if I heard him 
correctly, said that the policy we have now is the worst 
possible policy we could possibly have. I would simply say that 
no American died in Iraq or Syria today, and there are many 
policies available to us which will cost us substantially in 
blood and treasure and will be counterproductive to our 
national security objectives.
    We can perhaps improve the policy, but it starts not by 
claiming that the existing policy is the worst we could 
possibly have. Likewise, there were some who said that we had 
this great victory in Iraq that was recently squandered. We 
have Maliki. We had Iran domination or extreme influence. We 
had signed an agreement with Maliki to leave Iraq without a 
residual force, and we had an al-Maliki that was dead-set 
against signing any status of forces agreements that would have 
allowed us to leave a residual force.
    And yet there are those who seem to think that only if the 
President had a different personality Maliki would be the 
Thomas Jefferson of Mesopotamia. I don't think that is the 
case.
    As to oil, which is important in Iraq, the Sunnis are used 
to sharing more or less--they would argue less--their per 
capita share of substantial oil production. Now they have 
created a new state, or at least ISIS has, that leaves them 
with no--none of the Iraqi oil, and they do seem to control the 
Syrian oil.
    Is anyone here able to tell me what this decline in--how 
great this decline in per capita oil revenues are and whether 
Sunnis can view themselves as having a future with so little 
per capita oil--or oil per capita?
    General Keane. The production in Syria is about 100,000 
barrels at the most.
    Mr. Sherman. So basically of the forces that control 
territory in the area--Kurd, Alawite, Sunni, and Shi'ite--it is 
the Islamic State that has by far the least oil per capita. 
That being the case, is this a future that Iraqi Shi'a and 
Sunnis can endorse?
    General Keane. They will start moving toward the other oil 
areas, I believe, Mr. Congressman, and that is part of their 
goal, to seize additional oil, for example, in the Kirkuk area, 
the Baiji refinery, and other things.
    Mr. Sherman. Well, the refinery doesn't give you oil. Do 
you think that the Islamic State can defeat the Kurds in your 
Kirkuk?
    General Keane. They can't today, but they are going to be 
working on that.
    Mr. Sherman. Anybody else have a different opinion? Mr. 
Eisenstadt?
    Mr. Eisenstadt. If I could just add, basically, ISIL today 
is a parasitic and predatory organization. They don't have--as 
I mentioned in my testimony, maybe they were the richest 
terrorist group in the world; now they have to run the state, 
or at least they are claiming to run the state. And you need a 
lot more money to run a state than you do to run a terrorist 
organization.
    It comes down to the government--their monthly budget or 
the annual budget is about $12 billion. So they don't have 
anywhere near that. So in order to get the money, they are 
going to have to find a way, you know, beyond, you know, 
preying on their own people, expanding their boundaries. And as 
a result, inherently their situation, first of all, creates 
opportunities for us, but it also creates dangers, because I 
think the logic of their situation will force them to expand 
vis-a-vis their neighbors in order to get oil.
    Mr. Sherman. Let me ask one other question. I don't know if 
any of you has an answer. Iraq ran up $20 billion, $30 billion-
plus of debt under Saddam Hussein, borrowing money to finance 
its war of aggression against Iran. Have they renounced that 
debt? Are they paying it, Ambassador Jeffrey?
    Ambassador Jeffrey. Essentially, all of that debt was 
either paid off or forgiven, and they are in pretty good shape. 
They still have residual debts that pass through the U.N. to be 
paid to a compensation commission for Kuwait. But by and large, 
they are out of the red in that regard.
    Mr. Sherman. And, finally, is there support for this 
Islamic State, substantial support, in either Jordan or Saudi 
Arabia, among the peoples there?
    Mr. Eisenstadt. I have to--there was--the Saudis did 
announce I think in May that they arrested a cell of I think 52 
people that they said was associated with ISIL. So there will 
be people throughout the region. They already have a presence 
in Lebanon. There are signs of sympathy in Jordan. So their 
message will resonate in certain sectors throughout the region, 
and that is why they are so dangerous.
    General Keane. Can I jump in on that? The Saudis and the 
Jordanians, as a state, believe that ISIL is a threat. Inside 
Saudi Arabia, as we have known for generations, there are 
sheikhs and other leaders who support Salafist movements and 
radical Islamist movements.
    On the oil question that you asked, if you look at ISIL's 
objectives, they have no objectives to take the southern oil 
fields, nor even to attempt it. They leave that part of Iraq to 
Shi'a. It appears that they would have some interest in the 
northern oil fields. Just looking at their stated objectives, 
whether they can achieve that in the near term, I don't think 
so, but in the long term it is certainly a threat.
    Mr. Sherman. Thank you.
    Mr. Poe. The Chair yields to the gentlelady from Florida, 
Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Thank you, gentlemen, for excellent testimony. Constituents 
ask, what are our strategic goals and objectives in Iraq at the 
moment? Do you believe that the administration has formulated a 
rationale and a concrete policy for Iraq, or is it more of an 
ad hoc wait-and-see approach? That is my first question.
    And President Obama said that the administration wouldn't 
fall into the trap of Whac-a-Mole foreign policy, and that ISIL 
is just one of a number of organizations that we have to stay 
focused on.
    In his speech announcing that he was sending up to 300 
advisors to Iraq, the President said that Iraqi leaders must 
come together around a political plan for Iraq's future, and 
that a Parliament should convene as soon as possible, yet we 
haven't really felt a sense of urgency from the administration 
to deal with ISIL or the political situation in Iraq yet.
    Today, as we know, the Iraqi Government finally agreed on a 
new Sunni speaker, and they have 30 days to select a President, 
who will then task the majority party to form a government, so 
they can finally select a Prime Minister. How important do you 
think it is for Iraq to form a new inclusive government? And 
will that be enough to bring the people together? Or is it a 
case of too little too late and the damage has already been 
done by ISIL? And do you believe that Maliki needs to step 
aside in order to have any changes happen?
    Ambassador, I will start with you.
    Ambassador Jeffrey. Madam Chairman, first of all, last 
September at the U.N. the President laid out four goals that he 
would use all elements of national power to support in the 
Middle East--going after terrorist groups; supporting our 
partners an allies in the region, such as Jordan, such as 
Turkey, such as Iraq; working against weapons of mass 
destruction; and ensuring the free flow of oil.
    Right now, three of those four are under pressure because 
of this development of ISIL--terrorist movement; friends and 
allies being threatened today and tomorrow, as my colleagues 
have talked about, with Jordan and Saudi Arabia; and, of 
course, eventually the free flow of oil, not because, as 
General Keane said, ISIL can move into the south.
    What they can do is create enough chaos to put a damper on 
international engagement in the oil industry in the south. They 
can open the door for Iran to come in, and it is not in Iran's 
interest to have Iraq pumping more oil than Iran does, which--
--
    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador.
    Let me just go to the rest of the panel.
    General Keane. In reference to goals and objectives, 
certainly in the Middle East we want a stable and secure Middle 
East, and certainly we desired that for Iraq. And we wanted 
Iraq to be able to defend itself and not be a threat to its 
neighbors.
    You know, the comment about the Whac-a-Mole, I think that 
is a really misguided comment, because the fact of the matter 
is radical Islam is on the rise in the Middle East. Obviously, 
we are focused on ISIL because of what they have accomplished, 
but it is on the rise in the Middle East and in Africa. And we 
have no comprehensive strategy to truly deal with that.
    So it is not about whacking a mole. It is about using the 
region in a common strategy to work against this movement. It 
is an ideological movement, and we should come together, much 
as we did against Communist ideology, and unite together to do 
that, share in intelligence training partnerships, et cetera, 
and formalize those relationships. We are not doing that.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Bandow.
    Mr. Bandow. Well, it would certainly appear to me that the 
administration desires both stability and unity when it comes 
to Iraq. The question of its policy and whether it is wait-and-
see, it strikes me there is a certain prudential value in 
waiting and seeing in this case. That is, it is easier in, it 
is harder out once you are in, and especially without resolving 
the political situation in Baghdad.
    It is hard for me to see a solution without getting a more 
inclusive government, and I have a hard time seeing that with 
Maliki. Whether that would be enough, I think it is going to be 
hard. It is going to require hard bargaining and showing the 
Sunnis, Shi'ites, and their interest to share. That is, it is a 
tough road ahead.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Eisenstadt?
    Mr. Eisenstadt. Two very quick points. The politics are key 
to the military's success. Politics got us to where we are, and 
in order to get ourselves out of this situation, the politics 
in Baghdad have to be right. So, yes, a broader, more 
representative government, is key.
    Secondly, in terms of the administration's approach, I 
share their desire not to be sucked into a major military 
commitment in the region again. But if I was to critique on it, 
I would say that they tend to focus on solutionism. And they 
say we can't solve this problem with military means. And I 
would just say, yes, we can solve the region's problems, but 
that shouldn't be the criteria for assessing our intervention, 
because that still doesn't stop us from finding ways to shape 
region's dynamics in ways that advance our interests or stop 
worse things from happening.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, 
gentlemen.
    Thank you, Mr. Chairman.
    Mr. Poe. The Chair yields 5 minutes to the gentleman from 
Florida, Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. There has been a lot 
of talk about what ISIL is doing. I would just like to spend a 
minute talking about how they are doing it. There is a report 
that they gained some $400 million from the Mosul bank robbery. 
There were others who have suggested it might be closer to $60 
million. How does that compare to the war chest of other 
terrorist groups? And what other entities and/or countries 
continue to support them financially? Any of you?
    Mr. Eisenstadt. Yes. I mentioned before that they are 
predatory, and what I meant to say is that, although people 
focus on these spectacular bank heists, and the like, a lot of 
the money over the years has been as a result of extortion, 
shaking down people, both individuals and businesses, forcing 
people to pay taxes. The Christian communities have to pay a 
tax. They engage in smuggling of oil and weapons and 
antiquities. So a lot of this is pretty lucrative, but it is 
small change when you are talking about running a state.
    Mr. Deutch. So there is any foreign entity that has any 
influence over that?
    Mr. Eisenstadt. Well, there has been privately--been 
private investments from--excuse me, contributions from the 
Gulf, although that is probably--the Gulf States have been 
trying to clamp down on that as of late. But compared to what 
they earned domestically, they are self-sustaining as an entity 
based on what they are able to get from the Iraqis as well as 
from the oil transit trade, and stuff like that, and from the 
banks that they have been able to rob.
    Mr. Deutch. All right. Thank you.
    Thanks, Mr. Chairman. I yield back.
    Mr. Poe. The Chair recognizes the gentleman from Texas, Mr. 
Weber, for 5 minutes.
    Mr. Weber. Mr. Chairman, pass me up for the time being.
    Mr. Poe. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Perry, for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    And thank you, gentlemen. Getting into I guess the finances 
and the structure of ISIS as a form of government--and I guess 
it is in some way across that territory governing the land it 
has taken--my curiosity is in the oil and the oil revenues and 
the transportation and the flow of the commodity itself. And I 
don't know which one of you is best to answer the question. 
Maybe everybody wants to weigh in.
    But how is it that the transactions are taking place? First 
of all, how is the oil moving? Is it moving--is it being 
conducted through currently existing pipelines? And is it going 
to the coast? Is it going to other nation states?
    Go ahead, Ambassador.
    Ambassador Jeffrey. Again, ISIS has control over the fields 
in Syria that previously had up to 100,000 barrels a day. Not a 
huge amount, but still at $100 a barrel, even at smuggled 
prices, $50 or $25 a barrel, it generates a lot of money.
    There are a number of fields in Iraq, small fields. 
Roughly, I have seen 10,000, 15,000 barrels that they are also 
getting back into operation, and that is yielding oil. There is 
a lot of stocked oil in Baiji that they could get their hands 
on. And, of course, if they can get the refinery, they can 
refine it, and it is a higher value.
    There is no pipe--they have control of pipelines, but they 
can't use them. They are just blocking other people's use of 
them, including the central government or the Kurds. But what 
they are doing is participating in smuggling operations.
    In my experience, many years in Turkey and in Iraq trying 
to track all of that is you have people involved in oil 
smuggling over the entire Middle East. It is a huge business. 
All kinds of people are involved. And once you get that kind of 
money flowing, literally, what you find is even enemies 
negotiate with each other on local deals to move oil and to 
move refined product around. It is extremely hard to stop, and 
we have seen this for, as I said, decades.
    Mr. Perry. So, Ambassador, is it moving by truck? It is not 
moving by rail.
    Ambassador Jeffrey. No. Truck. Truck.
    Mr. Perry. All truck. So we are talking crude oil moved by 
truck.
    Ambassador Jeffrey. Crude and refined products to the 
extent--because there are a lot of small refineries and quasi-
refineries that people have developed along those areas.
    Mr. Perry. And what are they trading in? If they are 
selling it--it is my understanding in one report, selling it to 
Turkey. Syrian oil is sold to Turkey worth $800 million, and I 
am just curious about why Turkey would be buying oil from these 
folks.
    Also, the Assad government potentially, but none of that 
makes sense to me, and it is essentially selling oil to the 
people that you are trying to depose.
    Ambassador Jeffrey. It makes a lot of sense from my 
experience in the Middle East, Congressman, because people will 
sell oil to their enemies to get deals back. The Turkish 
Government isn't buying this oil, but middlemen, smugglers, 
gosh knows who in Turkey may be buying this.
    I saw the $800 and $1,000 figure, and I thought it was a 
little bit high. But nothing would surprise me when it comes to 
truck smuggling in the Middle East, because every time I 
dismissed it or played it down I have been proven wrong.
    Mr. Perry. And what currency? Do they use one--do they use 
an Iraqi currency, or what currency are they using as a vehicle 
for fiduciary vehicle?
    Ambassador Jeffrey. Everybody's favorite is dollars, 
Congressman, but people will use Iraqi, they will use Turkish, 
they will use Syrian.
    Mr. Perry. And is there any way to--I mean, that is 
financed through the operation, obviously. I mean, are they 
hoping to finance the operation? Is there any way from a 
financial standpoint--I imagine not based on--it sounds like 
the size of the operation, it is diverse enough and it is small 
enough that it would be pretty difficult to track it down. And 
it is not--probably doesn't have bank accounts associated with 
it. I am curious as to what our efforts are, if you know, and 
what they should be.
    Ambassador Jeffrey. If we want to stop it, bomb the oil 
fields.
    Mr. Perry. Fair enough. Anybody else wish to comment? Is 
it--let me ask you this, with the world price of oil always in 
jeopardy and always of concern, at what point does it become 
important enough to do that? Because if we don't, they raise 
enough money to continue to grow what is not an Islamic group 
but an Islamic army, and fund it--at what point? Do we know?
    Mr. Bandow. I mean, that is obviously one way to try to 
defund them. Their biggest potential source of money would be 
oil as opposed to the other things that they do. And oil 
smuggling has always been big in the Middle East, and it is 
just very hard to stop.
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Mr. Poe. The Chair recognizes the gentleman from Illinois, 
Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chair. Nothing like walking 
in and going right to questions.
    Nice to see you all, and, again, thank you for all of your 
very hard work and your time spending with us and dealing with 
votes and everything.
    As I mentioned in my opening statement, I think what we are 
seeing in Iraq right now is the worst-case scenario. Again, as 
somebody that was involved in fighting there, and somebody that 
saw firsthand the progress of the surge--I flew ISR aircraft, 
an RC-26--and watching the progress of the surge occur, when I 
went in 2008 and, you know, seeing a lot of attacks, and then 
in 2009 seeing people out playing on the streets and a 
relatively peaceful Iraq, to watch this fall apart has been 
very disheartening.
    In fact, I think that--and I think we have to be very clear 
about the fact that a status of forces agreement was never 
really intended by this administration. If you want to see what 
the intention of a status of forces agreement is, look at what 
has happened in Afghanistan. The U.S. has not had that signed 
yet, but yet we continue to try to get that signed by the 
Afghan Government. Whereas, in Iraq we say, ``Well, we tried 
and we just had to leave.'' And, again, what we are seeing is 
entirely predictable.
    I hear a lot of people when we talk about Iraq say a couple 
of the following things. And this one offends me the most, but 
I hear some folks say, ``Well, just let them all fight it out 
over there. Just let them deal with it over there.'' I also 
hear people say, ``Well, if Iran and Russia are getting 
involved in Iraq, good; now they are going to get myred down in 
the problems we have seen in Iraq,'' which I would remind 
people that say that in fact Iran and Russia don't see being 
myred down quite like we do.
    We see losing some troops, and every one we take very 
seriously and we hold precious, but we see that as being myred 
down. Whereas, Iran specifically does not see the loss of 
soldiers as any kind of being myred down. This is just what 
they do. They get involved in other countries' areas.
    The other thing I have heard people say is that if a 
caliphate is established, well, the good news is at least now 
they are going to learn how hard it is to govern there. And I 
would also remind anybody that would say something like that 
that in fact they don't consider governing like we do. 
Governing to them is not building water towers and building 
roads and schools. Governing to them is ensuring that a guy is 
not walking down the street holding his girlfriend's hand, lest 
he lose his head. That is a very different way of doing things.
    So what we are seeing there is the worst-case scenario. 
What I would like to do is just--I will start with the 
Ambassador and then go to the General, and if we have time work 
our way down. On some of the things I have mentioned about what 
people are saying for the reasons not to get involved--too 
complicated, you know, let them fight it out over there--what 
would be your reaction to that? Mr. Ambassador first.
    Ambassador Jeffrey. First of all, I draw the line with 
live-scale combat troops on the ground. I want to make that 
clear, because I often advocate military force. But spending 4 
years in Iraq and Vietnam, I am usually opposed to that unless 
I am very, very sure of the rationale.
    But using other means of power, including everything that 
General Keane laid out in such great detail, I would be 100 
percent in favor of that. The timing versus Maliki is 
important. But, no, we are not going to just sit back and watch 
these people just bash each other, because huge interests--the 
survival of Israel, the NATO borders in Turkey, the 20 percent 
of oil that flows out of the Gulf or global markets--all of 
these things are in play, and we need to be engaged or the 
situation is going to go even worse.
    Who likes the situation we have seen now? As you pointed 
out, it is perhaps not the worst situation, because I could see 
it getting even worse, but this is about as bad as I think many 
of us have seen in the Middle East in a long, long time, and we 
need to act.
    Mr. Kinzinger. Thank you. And, General, I will go to you in 
a second, but I do want to point out that we do want to see 
political solutions in Iraq. I would remind people that we had 
an Articles of Confederation in the United States, which we 
later threw out and adopted the Constitution of the United 
States to get it even more right.
    But I don't think we can wait for this massive--this 
amazing political solution when Iraq, from a year ago, made 
multiple requests of the United States Government to take out 
these terrorist camps, and they were largely ignored.
    General, what do you have to say to some of that?
    General Keane. Well, I have disagreed with the policy, 
because I--and I have had discussions with key administration 
officials about this. My own view is is that I do think we have 
to act, and I do think by acting it actually strengthens the 
political solution that we want as opposed to the reverse. And 
it gives us a much better seat at the table to have the kind of 
influence that we have had in the past.
    And we absolutely have to bring our allies into the region 
here. They are eventually going to be threatened by this 
directly. They are now indirectly, and we should work with 
them. We should formulate a strategy together. But we are going 
to have to be the quarterback here. That is the reality.
    Mr. Kinzinger. That is right. And let me--as I yield back, 
let me just say I get the politics of it. I believe, frankly, 
that the President withdrew from Iraq for political 
convenience. It would be much more politically convenient for 
me as a congressman that has to get elected to go back and say 
we are tired of every war in the Middle East and we just need 
to leave, but that is not what leadership is. And in 10 and 20 
years, history is going to judge what we did with this moment. 
And I believe at this rate it is going to judge us very 
harshly.
    And I yield back.
    Mr. Poe. The Chair recognizes the gentleman from Florida, 
Mr. DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Thank the witnesses for your comments. I was really alarmed 
when the Iraqi army just melted in the face of ISIL. I mean, to 
say that they folded like a cheap suit is really an insult to 
cheap suits. It was pathetic. And I knew that there were 
problems when our forces left. I know it wasn't going to be 
easy. But we have invested a lot of time, money, and resources 
into training those individuals.
    So, General Keane, I take from your testimony you think the 
reason or part of the reason that they folded like that was 
because of the politics coming out of the regime. Is that 
accurate?
    General Keane. Yes. He did much the same with the military 
as he did with his political opponents. You know, he sees this 
in the same rubric. You know, anybody that has done any time 
with Maliki, he is paranoid to a fault, insecure to a fault, 
and he is--you know, the art of politics for him is more about 
revenge than it is compromise. So that----
    Mr. DeSantis. Where does that leave us, though? I mean, it 
seems like you need to have a political solution in order to 
hope that we have an army there that can secure the country, 
which seems to me--I mean, it seems like that is going to be 
tough to ask for, at least in the near term.
    General Keane. Well, that is why I would like to get 
Ambassador Crocker and Petraeus over there to help, 
particularly on the military side. We know a lot of the leaders 
there, and the fact of the matter is they can be brought back. 
He pushed out the very distinguished leaders, battalion and 
brigade, and some extraordinary division commanders who 
distinguished themselves during the surge period in '07 and 
'08, and they were purged.
    And these cronies came in, who none of the troops 
respected, and they were there long enough to truly break the 
cohesion in those organizations. And it is certainly sad for 
anybody that gave so much of their time to help grow an 
acceptable military, and I think that is what we had when we 
left. I mean, look at--they are not in our--we don't look at it 
through our prism or through a European military.
    You have to look at it through the prism of what they are 
fighting, and they certainly met that, as far as we were 
concerned, in terms of meeting an acceptable challenge. But 
they are a mere shadow of their former self. It will be 
challenging to reconstruct it, as I said in my comments.
    Mr. DeSantis. How do you--with respect to that, how do you 
see the role of Iran's Quds force? I know there have been 
reports that one of their leaders is in Baghdad participating 
or advising on operations. So is that just separate with, like, 
Shi'ite militia groups? Or is that Quds force now exercising 
control or influence with the actual remnants of the Iraqi 
army?
    General Keane. The Quds forces are providing advisors. 
There is no doubt about that. They are also very focused on the 
shrines in Samarra and also in Najaf and Karbala. I think they 
have probably received some pretty direct instructions not to 
let those shrines fall into ISIL's hands.
    But the fact of the matter is, Iran has an influence here. 
And I think, as we sit on our hands and not do much about 
anything, that influence will grow. Their seat at the table 
will grow in stature, because Maliki is making a case right 
now. You can just hear him saying it, ``Look at, I have got 
international support. I have got the--I have got Iran here, 
and I have got the Russians here.'' Both of them want him to 
stay in power.
    And, really, everybody at this table, and anyone who knows 
anything about this situation, knows that he has to go or we 
are never going to get to some kind of a coalition government. 
The fact of the matter is that we cannot let that influence 
continue to grow and fester, or we will never be able to get to 
a better government solution than what we have.
    Mr. DeSantis. In terms of--and this is any--and I would 
like to get everyone's thought on this. I think you made a good 
point, General, when you said that it is not just sectarian. 
There are sectarian conflicts, but ISIS's goal is to topple 
Sunni regimes in the region. As I look at it, it seems to me 
that Jordan would be maybe one of the first ones that would be 
in their line of sight.
    So what is the panelists' view on which regimes 
specifically that we are allied with would be the most 
vulnerable? Is it the Hashemite Kingdom of Jordan? And we will 
start with the Ambassador and go down the line.
    Ambassador Jeffrey. It is Iraq itself. It is the Kurdish 
areas of the north. Eventually, if these guys build up more 
steam, then it is Jordan. But eventually it is the Gulf States. 
That is their target is to move into that area with its 
incredible riches.
    General Keane. I agree with that.
    Mr. Bandow. Yes. Certainly, Jordan is very vulnerable. I 
mean, it has a competent military, but its social 
circumstances--refugees, economic position, kind of the impact 
of the Arab Spring and discontent that it has--all of that 
makes it very vulnerable.
    Mr. Eisenstadt. All I will just say is that it may depend 
on circumstances and where they perceive an opportunity, but 
this is all the more reason why we need to put pressure on them 
in Syria and Iraq, so that they don't feel that they have the 
luxury of being able to engage in adventurism, you know, that 
they have to focus on just defending their position in Syria 
and Iraq, so they can't engage in that.
    Mr. DeSantis. Great. Mr. Chairman, thank you for holding 
this hearing. And I am concerned, and I know the chair is, 
about people with Western passports, Americans who are now 
fighting over there. They cannot be allowed, obviously, to come 
back in the United States and wage war against us here.
    And I yield back.
    Mr. Poe. The Chair recognizes the gentleman from Texas.
    Mr. Weber. Thank you, Mr. Chair.
    General Keane, some of the reading that I read said that 
the ISL really did not have easily discernible targets. So you 
are talking about doing air strikes and knocking out much of 
their capability. That seems contradictory.
    Are we able to go after them if the President--and let me 
just say, first, it seems like the President all of a sudden is 
against the withdrawal. Now, before he was for the withdrawal, 
before he was against the withdrawal. Are you all getting that 
sense out of the White House? He might wish he had left some 
forces in there?
    General Keane. I can't speak for the White House, Mr. 
Congressman. But the fact of the matter is there are targets 
available to us. If you are dealing around the highly populated 
areas in Baghdad where we are having contested fights, our 
ability to distinguish between Sunni tribes and ISIL is 
probably next to nothing.
    So that would be a challenge. The only way we would be able 
to facilitate that use of airpower is where air-ground 
controllers are in a fight and they know who they are in with 
and they can target them.
    But let us put that aside. The fact of the matter is, ISIL 
began this movement out of sanctuaries and staging bases in 
Syria. They are still there. They have lines of communication 
that are vulnerable there. They are moving equipment back and 
forth. Those are available targets to us.
    Up north, where this is no longer a contested area, there 
are staging bases and sanctuaries there that are available to 
us. This is air interdiction. ISIL identifies the target, and 
we strike----
    Mr. Weber. Okay. So you are talking about going back to 
their bases and working your way back towards----
    General Keane. Listen, this wouldn't be like an air 
campaign we did in Afghanistan and Iraq where we had hundreds 
of sorties a day. It wouldn't even be anything like what the 
Israelis are doing with Hamas at 80 sorties a day. This is 
selected and limited use of air power.
    Mr. Weber. Let me move on. Ambassador, if you could be 
President for a day, would you go ahead and bomb those oil 
fields?
    Ambassador Jeffrey. I might do that eventually, but I would 
have some better targets. As the General said, at this point, 
before the political situation coalesces, I would pick a few 
targets where we can definitely, through our drones and 
intelligence, identify ISIS and basically show that this 
administration is willing to use force against what is 
essentially an al-Qaeda element in Iraq when we are striking 
al-Qaeda all over the rest of the Middle East.
    Mr. Weber. Is that a preclusion to becoming--I think the 
General said the quarterback bringing in our allies, saying 
that we are willing to do this?
    Ambassador Jeffrey. At this point, limited military force 
would be a leverage factor, a multiplier of our influence, 
because right now this will make all the difference and people 
are wondering whether we are going to do it.
    Mr. Weber. You also said--let me ask you this, and I will 
ask this of the whole panel. What are the chances of ISIS, 
ISIL, call them whatever, once they establish this state, 
assuming--and let us just say for argument's sake they are 
successful--do they then turn on Syria?
    Ambassador Jeffrey. Eventually, they turn on everybody. 
That is what we have seen with al-Qaeda movements----
    Mr. Weber. Okay.
    Ambassador Jeffrey [continuing]. As they get real strong.
    Mr. Weber. General Keane?
    General Keane. Our analysts believe over at ISW and, you 
know, what they are tracking, is clearly Jordan is next, but--
and then they would go west into Syria, toward Damascus would 
be the----
    Mr. Weber. Mr. Bandow?
    General Keane. Right. Exactly.
    Mr. Bandow. Yes. Their expressed ambitions are quite wide, 
so I would expect Syria and Jordan to be on their list.
    Mr. Weber. Mr. Eisenstadt, do you want to round out the 
foursome?
    Mr. Eisenstadt. Yes. I will just say that, again, it may be 
that they will start off with a plan to do Jordan first, and 
then move on to Lebanon. But, again, it depends where they have 
the most opportunity I think.
    Mr. Weber. Okay. And then, General Keane, you said Maliki 
was paranoid to a fault. I think that was you. I mean, can you 
blame him? Number one. But, number--I guess more appropriately, 
who do you bring in in that situation that is not paranoid in 
that situation? Who is his successor?
    General Keane. Well, there is no doubt of the fact that 
there was a leadership train in Iraq, and the choices were few. 
And then, if you reflect back to that first election, it was a 
question of, you know, who could people agree with? And 
nobody's number one or two was even close to being selected. 
So, by default, we got Maliki.
    I think the tragedy of Maliki is when we had the 
opportunity to get a different government, the second--in the 
second election, when he actually lost by one vote, we had made 
that decision then, the year before, to politically disengage 
from the Maliki government.
    This was an administration decision made in 2009, and by 
that time we were well into our hands off of shaping the 
political future of Iraq, which I have always thought was a 
mistake because we did that to great success in Germany, Italy, 
Japan, South Korea, Philippines, Bosnia-Herzegovina, doing that 
very thing because of the stake in our own interest and the 
sacrifices that had been made.
    Mr. Weber. Thank you, Mr. Chairman. I thank you.
    Mr. Poe. The gentleman yields back? I assume he does.
    One question, General Keane. Saudi Arabia is in the middle 
of this. Why aren't they doing something?
    General Keane. Well, my experience with this is when they 
feel the threat, their intelligence services are on it. They 
are not as good as the Jordanian intelligence service, to be 
sure, but they need to be led. And that would be first step for 
me is meet with allies, let us share intelligence, let us 
identify what this is, what is the approach to deal with this, 
et cetera. And who can contribute to doing it.
    And I think that is the only way to approach this problem, 
that we should--but we need to lead it, to answer your 
question, Mr. Chairman. They are not going to do anything 
unilaterally unless their territory, their sovereignty is 
violated. But they have much to offer here in taking a 
collective response to what is taking place.
    And I am not just speaking militarily. I am also speaking 
diplomatically and politically in assisting what needs to take 
place.
    Mr. Poe. All right. Thank you.
    The Chair yields 5 minutes to the gentleman from Illinois, 
Mr. Schneider.
    Mr. Schneider. Thank you, Chairman Poe.
    And, again, thank you to the witnesses for your testimony 
and your insights today. I think, General Keane, you may have 
said something very poignant--it is the tragedy of Maliki. And 
I think history may look on this as one of the key aspects of 
where we are today.
    But let me start with Ambassador Jeffrey. You talked in 
your written testimony about Plan A, and the objective of a 
unified Iraq. I will open this to the whole panel. Why is it so 
crucial to maintain a unified Iraq?
    Ambassador Jeffrey. First of all, if one of the states in 
the Middle East starts to unravel, the risk is, as we saw in 
the Balkans in the 1990s, that other states start unraveling or 
other states start trying to pick up the pieces. And in the 
Middle East there are five juicier pieces than in the Balkans 
because of the oil, because of the history of weapons of mass 
destruction, and the potential for countries to develop it 
again.
    Syria tried it a few years ago in a nuclear account. Iraq's 
history, we all know, and we know the situation with Iran. So 
you have got tremendous built-up tensions that would explode if 
the place fell apart. Iran would gain power by dominating the 
oil fields to the south. The al-Qaeda movement worldwide would 
gain power. And America's role as the defender of states with 
whom we have had very strong security relationships--in this 
case the ex-state of Iraq--would be down the toilet. And I just 
don't see that as a good scenario.
    Mr. Schneider. I appreciate that. The distinction--one 
distinction I see is that in the Balkans you had historic 
geographic nation states. The nation states in this region 
historically, you know, Iran with the Persian history, Turkey, 
Ottoman, Egypt. But the others are a creation of 1916. How do 
we keep that together?
    Ambassador Jeffrey. I have spent almost as much of my 
career in the Balkans as in the Middle East, and the two areas 
in some respects are very similar. Once you start redrawing 
boundaries, it never stops, Congressman.
    Mr. Schneider. I understand.
    Ambassador Jeffrey. It doesn't stop in Germany. It doesn't 
stop anywhere.
    Mr. Schneider. I understand. And you said later in your 
testimony that the Kurds have to be brought in to the Iraqi 
camp. You know, they have taken steps to pull further away. Is 
it possible even to bring them back, even if Maliki is----
    Ambassador Jeffrey. Oh, I think so. Their deal right now is 
17 percent of all Iraqi oil exports. Under the right 
arrangements when they were negotiated in December, that would 
get them up to about $13 billion or $14 billion a year. You go 
to the Kurdish areas, you go to Irville now, and you see a 
booming area, the likes of which you would see nowhere else in 
the Middle East other than along the Gulf and in Israel. And 
that is thanks to the proceeds from the rest of--from the oil 
pump basically in the south.
    Mr. Schneider. Right.
    Ambassador Jeffrey. They will have oil. They have oil in 
their own areas, and they have some oil now in Kirkuk. They can 
export that if they go independent, but they won't have the 
same earnings and they are going to be in a militarily much 
more difficult situation, because they will be on their own 
facing ISIS. Thus, they have had to mobilize their reserves.
    They have 100,000 reserves. Many of them are under arms 
now. It is not a good economic financial situation, totally 
apart from the fact Iran is violently opposed--and I underline 
``violently opposed''--to them becoming independent for several 
other reasons.
    Under the right leadership in Baghdad--and that means no 
Maliki--I think they could be brought back in.
    Mr. Schneider. If Maliki stays, is that an option?
    Ambassador Jeffrey. If Maliki goes.
    Mr. Schneider. No. But what if he stays?
    Ambassador Jeffrey. If he stays, they are never coming 
back.
    Mr. Schneider. Okay. Then, the thing starts.
    General Keane, let me turn to you. You had talked about the 
need to defeat ISIS, ISIL, Islamic State, whatever we are 
calling it, as well as the need to defeat radical Islam. Can 
there be a distinction drawn between successfully defeating 
ISIL and defeating radical Islam in general?
    General Keane. You are suggesting--is that a worthy goal?
    Mr. Schneider. No, not as a worthy goal. Radical Islam is a 
much--is much broader than strictly the geography that ISIS is 
focused on. The need--clearly, we have to defeat ISIS. Can we 
defeat ISIS now without defeating radical Islam now? Or is 
there steps----
    General Keane. Well, I have always believed that we have 
needed a comprehensive strategy to deal with this ideology for 
some time. And much as we formed political or military 
alliances to deal with the Communist ideology, most of which 
were successful, we should be pursuing those same kind of 
alliances to share common political beliefs, intelligence 
training, et cetera.
    This is not about U.S. leading the efforts in African 
countries. This is about a shared responsibility, and we assist 
them so that they can function adequately themselves. And I 
think one of the things that happened to us, after we got so 
focused on the senior leadership in al-Qaeda, and which we have 
truly done damage to them, we took away everything that they 
really wanted, and we should feel good about that.
    But being so possessed by that, we neglected the spread of 
radical Islam which has really taken place. And we really don't 
have much of a strategy to deal with it. In fact, it was 
difficult for the administration at first even to admit it, and 
now finally they are beginning to admit it, but we still need a 
strategy to cope with it.
    And ISIL--the speed of what they have achieved certainly 
has now got our attention, and we are going to do something 
about it. And I just keep raising my hand once in a while to--
even that is important to us. It is a top priority. But we need 
a broader strategy than what ISIL----
    Mr. Schneider. I agree. It has to be everything.
    I know I am out of time. Mr. Eisenstadt, you looked like 
you wanted to say something, but I--Mr. Chairman, thank you. 
There are so many more questions. I appreciate the time you 
have given us today, and I look forward to hearing more.
    Mr. Poe. Thank you, gentlemen. Thank all four of you for 
being here today. The information has been very valuable.
    The subcommittees are adjourned. Thank you once again.
    [Whereupon, at 4:24 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 

[Note: Responses were not received to the preceding questions prior to 
printing.]

                                 [all]

</pre></body></html>
